No. 20-216
INTHE

6uprtmt Court of tbt mntttb 6tatts
PRIANKA BOSE, PETITIONER,
V.

RHODES COLLEGE AND ROBERTO DE LA SALUD BEA

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

REPLY BRIEF FOR THE PETITIONER

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I certify that the document contains
2,996 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.l(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on December 8, 2020.

~gi:r==

Colin Casey
Wilson-Epes Printing Co., Inc.

